Case No.:_____________

In The
Supreme Court of the United States

O

MONIB ZIRVI, MATTHEW LUBIN, MARIA KEMPE
and NORMAN GERRY,
Petitioners,
v.
JAY T. FLATLEY, ILLUMINA INC., DAVID R. WALT, STEPHEN P.A.
FODOR, KEVIN GUNDERSON, JIAN BING FAN, MARK CHEE,
AFFYMETRIX, D/B/A AS PART OF THERMO FISHER SCIENTIFIC,
APPLIED BIOSYSTEMS, D/B/A BRAND OF THERMO FISHER
SCIENTIFIC, ROBIN M. SILVA and JOHN R. STUEPLNAGEL,,
Respondents.
______________________
On Petition for a Writ of Certiorari to the United States Court
of Appeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI
ERIC H. JASO
Counsel of Record
JASON C. SPIRO
SPIRO HARRISON
830 Morris Turnpike
Second Floor
Short Hills, New Jersey 07078
(973) 232-0881
ejaso@spiroharrison.com
jspiro@spiroharrison.com
Counsel for Petitioners
APPELLATE INNOVATIONS
(914) 948-2240
Printed on Recycled Paper

16116

i

QUESTIONS PRESENTED
1. Did the Second Circuit err in holding, in contrast to the Federal
Circuit, that under the “inquiry notice” standard applicable to trade
secret misappropriation claims where plaintiff alleges that
defendant fraudulently concealed the misappropriated intellectual
property (IP), “storm warnings” triggered constructive notice on the
part of the plaintiffs?
2. In a trade secret misappropriation case where plaintiff alleges with
particularity that defendants fraudulently concealed the
misappropriated IP in multiple patent applications, is dismissal
with prejudice permissible at the pleading stage under Rule
12(b)(6)?
3. Did the Second Circuit err in summarily affirming the district
court’s holding that intellectual property constituting “negative
trade secrets” per se have no independent economic value once
discoveries constituting related positive trade secrets are
published?

ii

PARTIES TO THE PROCEEDINGS BELOW
The Plaintiffs-Appellants, and the Petitioners herein, are Monib
Zirvi, Matthew Lubin, Maria Kempe and Norman Gerry.
The Defendants-Appellees, and Respondents herein, are Jay T.
Flatley, Illumina, Inc. David R. Walt, Stephen P.A. Fodor, Kevin
Gunderson, Jian Bing Fan, Mark Chee, Affymetrix, DBA as part of
Thermo Fisher Scientific, Applied Biosystems, DBA Brand of Thermo
Fisher Scientific, Robin M. Silva and John R. Stueplnagel.
PROCEEDINGS IN THE TRIAL AND APPELLATE COURTS
Zirvi et al. v. Flatley et al. (Case No. 1:18-cv-7003 (JGK)) in the United
States District Court for the Southern District of New York, judgment
entered January 15, 2020.
Zirvi et al. v. Flatley et al. (Case No. 20-546) in the United States Court
of Appeals for the Second Circuit, judgment entered December 11, 2020.
PROCEDURAL HISTORY
i.

On January 14, 2020, the United States District Court for the
Southern District of New York (Koeltl, J.) issued an Opinion and Order
granting Respondents’ motion to dismiss Petitioners’ Second Amended
Complaint in the civil matter of “Monib Zirvi, Matthew Lubin, Maria
Kempe and Norman Gerry. v. Jay T. Flatley, Illumina, Inc. David R.
Walt, Stephen P.A. Fodor, Kevin Gunderson, Jian Bing Fan, Mark
Chee, Affymetrix, DBA as part of Thermo Fisher Scientific, Applied
Biosystems, DBA Brand of Thermo Fisher Scientific, Robin M. Silva
and John R. Stueplnagel” (Case No. 18-cv-7003 (JGK)). On January
15, 2020, the Clerk of the United States District Court for the
Southern District of New York entered Judgment closing the case.

ii.

On December 11, 2020, the United States Court of Appeals for the
Second Circuit (Case No. 20-546) affirmed the District Court’s Order
granting Respondents’ motion to dismiss Petitioners’ Second Amended
Complaint. The Second Circuit issued its Judgment Mandate on
January 4, 2021.

iii

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES ..................................................................... iv
QUESTIONS PRESENTED ...................................................................... i
PARTIES TO THE PROCEEDINGS BELOW ......................................... ii
PROCEEDINGS IN THE TRIAL AND APPELLATE COURTS ............. ii
PROCEDURAL HISTORY ........................................................................ ii
INTRODUCTION ...................................................................................... 1
TRIAL AND APPELLATE COURT OPINIONS ...................................... 5
STATEMENT OF JURISDICTION .......................................................... 5
CONSTITUTIONAL PROVISION AND FEDERAL STATUTES
INVOLVED ............................................................................................... 6
STATEMENT OF THE CASE .................................................................. 6
REASONS FOR GRANTING THE PETITION ........................................ 9
1. The Second Circuit and Federal Circuit Conflict on Inquiry
Notice in Complex Trade Secret Misappropriation Cases ............ 9
2. The Second Circuit Summarily Affirmed the District Court’s
Erroneous Conclusion that Negative Trade Secrets Per Se
Lack Value .................................................................................. 11
CONCLUSION ........................................................................................ 13

iv

TABLE OF AUTHORITIES
Cases:

Page

Agency Holding Corp. v. Malley-Duff & Associates, Inc.,
483 U.S. 143 (1987) ............................................................................. 6
AlterG, Inc. v. Boost Treadmills LLC,
388 F. Supp. 3d 1133 (N.D. Cal. 2019).............................................. 12
Ariosa Diagnostics, Inc. v. Illumina, Inc.,
No. 18-109 (additional explanation of NIPT) ................................. 3, 8
Calendar Research LLC v. StubHub, Inc.,
No. 2:17-cv-04062-SVW-SS, 2020 U.S. Dist. LEXIS 112361
(C.D. Cal. May 13, 2020) ................................................................... 12
Coda v. Goodyear,
916 F.3d 1350 (Fed. Cir. 2019) ...................................................... 9, 10
Federal Trade Commission v. Illumina, Inc., GRAIL, Inc.,
1:21-cv-00873 ....................................................................................... 3
Genentech, Inc. v. JHL Biotech, Inc.,
No. 18- CV -06582 WHA, 2019 U.S. Dist. LEXIS 36140,
2019 WL 1045911 (N.D. Cal. Mar. 5, 2019) ...................................... 11
Koch v. Christie’s Int’l PLC,
699 F.3d 141 (2d Cir. 2012) ........................................................... 9, 10
Syntel Sterling Best Shores Mauritius Ltd. v. Trizetto Grp., Inc.,
No. 15 Civ. 211 (LGS), 2021 U.S. Dist. LEXIS 75875
(S.D.N.Y. Apr. 20, 2021) ...................................................................... 8
Waymo LLC v. Uber Techs., Inc.,
No. C 17-00939 WHA, 2018 U.S. Dist. LEXIS 8263
(N.D. Cal. Jan. 18, 2018) ................................................................... 12

v

Rules, Laws and Statutes:
18 U.S.C. § 1836 .................................................................................... 5, 6
18 U.S.C. § 1961 ........................................................................................ 6
18 U.S.C. § 1962 .................................................................................... 5, 6
18 U.S.C. § 1968 ........................................................................................ 6
28 U.S.C. § 1254 ........................................................................................ 5
Rule 12(b)(6) ..................................................................................... i, 9, 10
Rule 9(b) .............................................................................................. 7, 10
U.S. Const. Article I, Section 8 ........................................................... 6, 10

vi

TABLE OF CONTENTS
(Appendix)
Opinion and Order of Honorable John G. Koeltl,
Dated January 14, 2020 .............................................................. Appx. 1
Summary Order of The United States Court of Appeals for the
Second Circuit, Filed December 11, 2020 ................................. Appx. 37

1

IN THE
Supreme Court of the United States
————
Monib Zirvi, Matthew Lubin, Maria Kempe and
Norman Gerry,
Petitioners,
v.
Jay T Flatley, Illumina Inc., David R.
Walt, Stephen P.A. Fodor, Kevin
Gunderson, Jian Bing Fan, Mark Chee,
Affymetrix, d/b/a as part of Thermo Fisher
Scientific, Applied Biosystems, d/b/a
Brand of Thermo Fisher Scientific, Robin
M. Silva and John R. Stueplnagel.,
Respondents.
————
On Petition for a Writ of
Certiorari to the United States
Court of Appeals for the Second
Circuit
————
PETITION FOR A WRIT OF
CERTIORARI
————
INTRODUCTION
Monib Zirvi, Matthew Lubin, Maria Kempe and Norman Gerry
(together “plaintiffs”) respectfully petition for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Second
Circuit in this case.

2

Plaintiffs are co-inventors on International Patent Applications
WO97/31256 and WO97/45559, which played a critical role in the
development of DNA Arrays known as Universal “Zip Code” Arrays, or
Universal DNA Arrays. Plaintiffs and co-inventors developed and
patented the arrays while working in the Barany Laboratory at Cornell
University Medical College (now Weill Cornell Medicine) and Barany Lab
collaborators. These arrays are “programmable” and depend on specially
designed solid and solution phase oligonucleotides, which plaintiff and
co-inventors named as “Zip Code Sequences.” These “Zip Code
Sequences” are the basis for revolutionary advances in the detection of
changes in DNA. The detection of such changes is critical for the prompt
diagnosis and targeted treatment of cancer, inherited genetic defects, and
viral infections such as SARS Coronavirus variants. See, e.g.¸ Universal
DNA microarray method for multiplex detection of low abundance point
mutations, Gerry NP, Witowski NE, Day J, Hammer RP, Barany G,
Barany
F.J
Mol
Biol.
1999
Sep
17;292(2):251-62.
doi:
available
at
10.1006/jmbi.1999.3063,
https://pubmed.ncbi.nlm.nih.gov/10493873/; Universal DNA array
detection of small insertions and deletions in BRCA1 and BRCA2, Favis
R, Day JP, Gerry NP, Phelan C, Narod S, Barany F. Nat Biotechnol. 2000
May;18(5):561-4.
doi:
10.1038/75452,
available
at
https://pubmed.ncbi.nlm.nih.gov/10802632/; A universal microarray for
detection of SARS coronavirus, Long WH, Xiao HS, Gu XM, Zhang QH,
Yang HJ, Zhao GP, Liu JH.J Virol Methods. 2004 Oct;121(1):57-63. doi:
10.1016/j.jviromet.2004.06.016,
available
at
https://pubmed.ncbi.nlm.nih.gov/15350733/.
International Patent Applications WO97/31256 and WO97/45559,
also played a critical role in the development of polymerase chain
reaction (PCR)/ligase detection reaction (LDR), LDR-PCR, PCR-PCR,
and PCR-PCR-LDR DNA amplification technology. These methods are
foundational to high-throughput Next Generation Sequencing (NGS).
These technologies are critical for both non-NGS-based and NGS-based
“Liquid Biopsy” detection of early cancer, non-invasive Prenatal Testing
(NIPT), and multi-cancer early detection (MCED). “MCED tests are

3

poised to revolutionize how cancer is detected and treated, having the
potential to save millions of lives in the United States and around the
world.” See generally Federal Trade Commission v. Illumina, Inc.,
GRAIL, Inc. (1:21-cv-00873) (additional explanation of MCED), and
Ariosa Diagnostics, Inc. v. Illumina, Inc., No. 18-109, (additional
explanation of NIPT). Also, see, e.g. Application of Multiplex Bisulfite
PCR-Ligase Detection Reaction-Real-Time Quantitative PCR Assay in
Interrogating Bioinformatically Identified, Blood-Based Methylation
Markers for Colorectal Cancer, Bacolod MD, Mirza AH, Huang J,
Giardina SF, Feinberg PB, Soper SA, Barany F. J Mol Diagn. 2020
Jul;22(7):885-900. doi: 10.1016/j.jmoldx.2020.03.009, available at
https://pubmed.ncbi.nlm.nih.gov/32407802/; Selective analysis of cell-free
DNA in maternal blood for evaluation of fetal trisomy, Sparks AB, Wang
ET, Struble CA, Barrett W, Stokowski R, McBride C, Zahn J, Lee K, Shen
N, Doshi J, Sun M, Garrison J, Sandler J, Hollemon D, Pattee P, TomitaMitchell A, Mitchell M, Stuelpnagel J, Song K, Oliphant A. Prenat Diagn.
2012
Jan;32(1):3-9.
doi:
10.1002/pd.2922.
available
at
https://pubmed.ncbi.nlm.nih.gov/22223233/; Microarray-based cell-free
DNA analysis improves noninvasive prenatal testing, Juneau K, Bogard
PE, Huang S, Mohseni M, Wang ET, Ryvkin P, Kingsley C, Struble CA,
Oliphant A, Zahn JM. Fetal Diagn Ther. 2014;36(4):282-6. doi:
10.1159/000367626,
available
at
https://pubmed.ncbi.nlm.nih.gov/25228026/; Sensitive and specific multicancer detection and localization using methylation signatures in cell-free
DNA, Liu MC, Oxnard GR, Klein EA, Swanton C, Seiden MV; CCGA
Consortium. Ann Oncol. 2020 Jun;31(6):745-759. doi: 10.1016/
j.annonc.2020.02.011,
available
at
https://pubmed.ncbi.nlm.nih.gov/33506766/.
In the lawsuit below, plaintiffs alleged that Illumina – now a
multibillion-dollar, global player in genetic analysis, and a company the
Federal Trade Commission has labeled a “monopolist”1 -- conspired over
“Illumina is a monopolist. It is the self-proclaimed leader in DNA sequencing and
dominates DNA sequencing markets in the United States and worldwide. . . . In the
United States, Illumina has complete dominance over the market for these

1

4

decades with other companies and individuals to first purloin plaintiffs’
ideas and then fraudulently conceal that theft as well as the continuing
(and ongoing) misuse of their trade secrets in numerous patent filings
and even in administrative and judicial proceedings.
In dismissing plaintiffs’ case with prejudice at the pleading stage,
the district court (and the court of appeals in affirming that judgment)
imposed Second Circuit precedent on equitable tolling of the statutes of
limitations and fraudulent concealment which the Federal Circuit
implicitly (and correctly) recognized is wholly inappropriate in a complex
intellectual property case involving misappropriated trade secrets and
the concealment of that wrongdoing in patent filings.
Specifically, the lower courts held that plaintiffs should have
realized that Illumina and its coconspirators had stolen their inventions
many years ago by examining defendants’ patent filings and/or
monitoring administrative and court proceedings where related
technology (in fact, plaintiffs’ own technology, intentionally and
fraudulently concealed) was at issue. Citing a Second Circuit case
involving fake vintage wine being sold at auction (which fakery had long
been the subject of media and industry attention), the lower courts held
that plaintiffs failed to heed “storm warnings” of wrongdoing that should
have put them on notice of their injury and potential legal claims.
In a much more analogous case involving a small tire-technology
business which alleged that Goodyear stole its trade secrets and hid that
theft in patent filings, the Federal Circuit correctly reversed a district
court dismissal on statute-of-limitations grounds, holding that the
plaintiff could not reasonably be expected to comb through the myriad
and voluminous filings of a corporate giant in an effort to see if defendant
had purloined its invention. The Second Circuit failed to follow that
analogous case, understandably (though wrongly) following its own
precedent.
products, with a share of over 90%.” Complaint, In the Matter of Illumina,
Incorporated, and Pacific Biosciences of California, Incorporated, Federal Trade
Comm’n, Docket No. 9387 (Dec. 17, 2019).

5

The Second Circuit also erred in summarily affirming the district
court’s determination that “negative trade secrets” have no independent
economic value and thus essentially cannot be the subject of a
misappropriation claim. That conclusion was simply wrong and contrary
to courts’ longstanding recognition of both the intellectual-property
concept and its potentially huge value.
TRIAL AND APPELLATE COURT OPINIONS
On January 14, 2020, the United States District Court for the
Southern District of New York (Koeltl, J.) issued an Opinion and Order
granting Respondents’ motion to dismiss Petitioners’ Second Amended
Complaint. The decision is reported at Zirvi v. Flatley, 433 F. Supp. 3d
448 (S.D.N.Y. 2020). See also Appx. 1-36.
On December 11, 2020, the United States Court of Appeals for the
Second Circuit summarily affirmed the district court’s dismissal of
Petitioners’ Second Amended Complaint. The decision was not reported
but can found at Zirvi v. Flatley, 838 Fed. Appx. 582 (2d. Cir. 2020). See
also App. 37-48.
STATEMENT OF JURISDICTION
Federal jurisdiction in the district court was premised upon 18
U.S.C. §§ 1836(b)(1) and 18 U.S.C§ 1962(c) and (d).
This Petition for a Writ of Certiorari is timely under Rule 13 of the
Rules of the Supreme Court of the United States, as amended by its
March 19, 2020 Miscellaneous Order extending the deadline to 150 days
from the date of the Second Circuit’s order. The Second Circuit issued its
Summary Order affirming the District Court’s dismissal of Petitioners’
Second Amended Complaint on December 11, 2020.
This Court has jurisdiction pursuant to 28 U.S.C. §1254(1).

6

CONSTITUTIONAL PROVISION AND
FEDERAL STATUTES INVOLVED
Article I, Section 8, Clause 8 of the United States Constitution
authorizes Congress “To promote the progress of science and useful arts,
by securing for limited times to authors and inventors the exclusive right
to their respective writings and discoveries.”
Claims under the Defend Trade Secrets Act of 2016 (“DTSA”) must
be brought within three years from the date when the misappropriation
“is discovered or by the exercise of reasonable diligence should have been
discovered.” 18 U.S.C. § 1836(d).
The Racketeer Influenced and Corrupt Organizations Act (“RICO”)
provides no statute of limitations. See 18 U.S.C. §§ 1961-1968. However,
this Court has held that RICO claims must be brought within four years
from the date the plaintiff “discovered or should have discovered” his
injury. Agency Holding Corp. v. Malley-Duff & Associates, Inc., 483 U.S.
143 (1987).
STATEMENT OF THE CASE
Petitioners filed their Complaint on August 3, 2018, alleging
violations of the Defend Trade Secrets Act (“DTSA”) (18 U.S.C. §§
1836(b), New York Trade Secret Laws, the Racketeer Influenced Corrupt
Organizations Act (“RICO”),18 U.S.C§ 1962(c) and (d), common law
fraud, breach of fiduciary duty, breach of confidence, unjust enrichment,
unfair trade practices, as well as tortious interference with prospective
economic advantage. Petitioners filed a First Amended Complaint was
filed December 6, 2018 which named the additional Defendants Robin M.
Silva and John R. Stueplnagel.
Petitioners filed a Second Amended Complaint on February 8, 2019.
On March 15, 2019, all Defendants filed their respective Motions to
Dismiss the Second Amended Complaint. The District Court dismissed
Petitioners’ Second Amended Complaint with prejudice on January 15,
2020.

7

The District Court dismissed Petitioners’ federal claims on the
ground that the applicable statute of limitations had expired. Zirvi v.
Flatley, 433 F. Supp. 3d 448, 460 (S.D.N.Y. 2020). The DTSA is subject
to a three-year statute of limitations which runs from when the plaintiff
knew or should have known that the alleged trade secrets were
wrongfully acquired, disclosed, or used. Id. at 459. RICO claims are
subject to a four-year statute of limitations and accrual dates under the
RICO statute are similarly determined when the plaintiff knew or should
have known of the alleged injury. Id. The District Court found
Petitioners’ claims under the DTSA and RICO had accrued by no later
than 2010 and thus the statutes of limitations had expired in 2013 and
2014 respectively. Id. at 460.
The District Court found that either three- or six-years statutes of
limitations governed Petitioners’ state law and common law claims. Id.
The District Court found that the state law and common law claims arose
out of the same factual allegations as the DTSA and RICO claims and
thus for the substantially same reasons the statute of limitations had run
on the state law and common law claims. Id. at 461.
The Petitioners had argued that the statutes of limitations should
be equitably tolled under the doctrine of fraudulent concealment. Id. The
District Court found that Petitioners did not allege with particularity
that the defendants fraudulently concealed their various
misappropriation claims as required by Rule 9(b). Id. at 462. The
District Court also found that Petitioners had inquiry, actual, or
constructive notice of alleged wrongdoing as early as 1994 and no later
than 2010 for statute of limitations purposes. Id.
The District Court also found that Petitioners failed to allege
actionable post-enactment conduct for their federal claims. Id. at 463.
The DTSA became effective in 2016 and amended RICO to include the
misappropriation of trade secrets as an enumerated predicate act. Id. It

8

does not apply retroactively. Id.2 The District Court found that the
alleged misappropriation occurred in 1994 and 1999. Id. at 464.
The District Court also found that Petitioners did not identify their
alleged trade secrets with sufficient particularity to apprise the
Respondents of what information contained in the alleged negative trade
secrets is secret and what information is not. Id. at 465. It found that
Petitioners also did not allege how trade secrets derive independent
economic value from not being generally known given the existence of
information publicly available in the patent applications and patents
described in Petitioners’ pleadings. Id.
Petitioners filed their Notice of Appeal on February 12, 2020. The
Second Circuit heard the oral arguments of Petitioners and Respondents
on December 2, 2020 and issued a Summary Order affirming the District
Court on December 11, 2020. Zirvi v. Flatley, 838 F. App'x 582 (2d Cir.
2020). The Second Circuit agreed with the District Court and found that
Petitioners’ federal, state, and common law claims had accrued by no
later than 2010 and the applicable statutes of limitations had all lapsed.
Id. at 585-87. It also agreed with the District Court that Petitioners’
fraudulent concealment claims lacked particularity. Id. at 587-88. The
Second Circuit issued its Judgment Mandate on January 4, 2021.

However, “[t]he DTSA applies to pre-enactment conduct if the misappropriation
continues after the enactment date.” Syntel Sterling Best Shores Mauritius Ltd. v.
Trizetto Grp., Inc., No. 15 Civ. 211 (LGS), 2021 U.S. Dist. LEXIS 75875, at *19
(S.D.N.Y. Apr. 20, 2021) (citing Zirvi v. Flatley, 433 F. Supp. 3d 448, 463 n.9
(S.D.N.Y. 2020) (collecting cases), aff'd, 838 Fed. Appx. 582 (2d Cir. 2020)). Further,
the SAC pled with particularity continuing fraud through 2016 and thereafter,
including extensive fraud in Illumina’s US7,955,794 patent and related litigation in
Ariosa Diagnostics, Inc. v. Illumina, Inc., No. 18-109 (including related declarations
by co-defendant Jian Bing Fan), and collusion between Illumina and its ersatz
competitor Thermo Fisher (during a lawsuit in which they were opposing parties)
which led to their joint announcement of the “AmpliSeq for Illumina” product in
2018. See SAC ¶¶ 45, 452-66, 484-95, 536-37, 595-98.
2

9

REASONS FOR GRANTING THE PETITION
1. The Second Circuit and Federal Circuit Conflict on Inquiry Notice in
Complex Trade Secret Misappropriation Cases
In Koch v. Christie’s Int’l PLC, 699 F.3d 141 (2d Cir. 2012), where
plaintiff alleged that an auction house had fraudulently sold fake vintage
wine, the Second Circuit held:
[W]hen a RICO plaintiff “makes no inquiry once the duty
arises, knowledge will be imputed as of the date the duty
arose.” Id. Thus, once there are sufficient “storm warnings” to
trigger the duty to inquire, and the duty arises, if a plaintiff
does not inquire within the limitations period, the claim will
be time-barred. In such a case, knowledge of facts that would
suggest to a reasonably intelligent person the probability that
the person has been injured is dispositive.
Id. at 153. Further, with regard to fraudulent concealment tolling
the statute of limitations in a RICO case, the court held:
Reasonable diligence is a prerequisite to the applicability of
equitable tolling. . . . A RICO plaintiff who is not reasonably
diligent may not assert fraudulent concealment.
Id. at 157 (cleaned up).
In Coda v. Goodyear, 916 F.3d 1350 (Fed. Cir. 2019), where a small
business alleged trade secret misappropriation by a global tire company,
the court noted that the statute of limitations is an affirmative defense,
and because “a plaintiff generally need not plead the lack of affirmative
defenses to state a valid claim, a Rule 12(b)(6) motion, which considers
only the allegations in the complaint [viewed in the light most favorable
to the plaintiff], is generally an inappropriate vehicle for dismissing a
claim based on the statute of limitations.” In so holding, the Federal
Circuit acknowledged the near impossibility of a small business

10

reviewing the hundreds of patent applications filed by Goodyear per year
in an effort to discover evidence of misappropriated trade secrets. Id. at
1361 & n.8. Specifically, to dismiss the case at the pleading stage, the
court would be required “to infer that Plaintiffs were looking for SIT
patents (or should have been doing so) at a certain time.” Id. at n.8.
However, the court held that “the complaint does not compel those
inferences to the exclusion of reasonable inferences favorable to the
plaintiffs.” Id. The court also acknowledged that plaintiffs had posited
plausible explanations for their purported failure to monitor and review
Goodyear’s myriad patent applications, and held that the district court
thus failed to draw all reasonable inferences in plaintiffs’ favor. Id.
In this case, the Second Circuit, following Koch, held that because
plaintiffs had made only “generalized and conclusory allegations of
fraudulent concealment” to equitably toll the statute of limitations, the
district court properly dismissed the complaint (and with prejudice)
under Rules 9 and 12(b)(6). In essence, the Second Circuit required
plaintiffs to engage in due diligence that the Coda court recognized was
unreasonable and impracticable. Under the Second Circuit’s holding,
plaintiffs were required to affirmatively plead the impossibility of (i)
reviewing hundreds of defendants’ patent applications in an effort to
discover evidence of misappropriated trade secrets, and (ii) seeing
through defendants’ extensive efforts to disguise the theft of plaintiffs’
trade secrets in those same patent filings.
The Second Circuit’s application of Koch to a complex trade secret
misappropriation case therefore conflicts with the Federal Circuit’s
holding in Coda, a circuit split which only this Court can resolve.
Furthermore, the Second Circuit’s precedent has the effect of
undermining the Constitution’s protection of intellectual property. See
U.S. Const. Article I, Section 8, Clause 8. Accordingly, leaving the Second
Circuit’s judgment unreviewed and in effect will cause extensive harm to
the field of medical research, as inventors and academic research
institutions would be burdened by an impossible standard for protecting
their trade secrets from sophisticated (and in this instance, monopolistic)
bad actors who misappropriate those trade secrets and fraudulently

11

conceal their theft in voluminous patent filings, administrative
proceedings and court submissions.
2. The Second Circuit Summarily Affirmed the District Court’s Erroneous
Conclusion that Negative Trade Secrets Per Se Lack Value
In dismissing plaintiffs’ claims based on defendants’
misappropriating their negative trade secrets, the district court
concluded: “It is difficult to see how negative trade secrets consisting of
unsuccessful efforts to develop trade secrets and experimental dead ends
. . . can have independent economic value when the end result of the
process, the positive trade secrets, have in fact been uncovered. Zirvi v.
Flatley, 433 F. Supp. 3d 448, 465 (S.D.N.Y. 2020). Although the Second
Circuit quoted the Second Amended Complaint’s definition and
explanation of these negative trade secrets in its opinion (see Zirvi v.
Flatley, 838 Fed. Appx. 582, 584 n.2), it did not address that issue,
consigning it (presumably) to the dustbin of “plaintiffs’ remaining
arguments” which it found to be “without merit,” id. at 587. The Second
Circuit’s summary affirmance of that blatant error should be addressed.
The intellectual-property concept of “negative trade secrets,” and
the fact that they can be just as valuable (sometimes more so) than
“positive” trade secrets is well recognized. A California district court ably
summarized the state of the law:
Courts have recognized the viability of "negative know-how"
as a trade secret, because it could "confer [Defendants] the
benefit of steering clear of fruitless development pathways,
thereby saving precious time and resources." Genentech, Inc.
v. JHL Biotech, Inc., No. 18- CV -06582 WHA, 2019 U.S. Dist.
LEXIS 36140, 2019 WL 1045911, at *19 (N.D. Cal. Mar. 5,
2019). Misappropriation of negative know-how can be
especially damaging because "such information would be
virtually untraceable, thereby making the task of identifying
(and enjoining) . . . [the] trade secrets . . . a bone-crushing
endeavor." 2019 U.S. Dist. LEXIS 36140, at *20. A clear case
of negative know-how involves
pharmaceutical

12

manufacturing, where avoiding previously failed formulas
avoids the expense of costly research and trials. See 2019 U.S.
Dist. LEXIS 36140, at *3 (defendant's alleged theft of valuable
research and design techniques allowed to them to expedite
the regulatory approval process for biosimilar drugs). Even in
the similar field of medical device manufacturing, plaintiffs
struggle to define negative know-how trade secrets when
their
designs
are
conceptual
rather
than
technical. See AlterG, Inc. v. Boost Treadmills LLC, 388 F.
Supp. 3d 1133, 1145 (N.D. Cal. 2019) (medical device
manufacturer failed to sustain claims for misappropriation of
its "positive and negative learnings of low-cost mechanical
unweighted systems, air pressure systems, and Differential
Air Pressure systems" because they were too broadly defined).
Calendar Research LLC v. StubHub, Inc., No. 2:17-cv-04062-SVW-SS,
2020 U.S. Dist. LEXIS 112361, at *26-27 (C.D. Cal. May 13, 2020). Accord
Waymo LLC v. Uber Techs., Inc., No. C 17-00939 WHA, 2018 U.S. Dist.
LEXIS 8263, at *10 (N.D. Cal. Jan. 18, 2018) (“[A] defendant
might use a negative know-how trade secret by taking its lesson
to avoid developing apparently fruitless technology.”) It should be noted
that the parties to Waymo v. Uber settled the disputed claims, which
included “negative know-how trade secret[s]” for some $245 million in
stock. See D. Wakabayashi, In Settlement, Waymo Gets $245 Million in
Uber Stock, The New York Times, Feb. 10, 2018, Sec. B, p.1.
In short, “negative” trade secrets have potentially tremendous
value, equal to (and in the health care sphere, sometimes exceeding) the
value of the eventually workable inventions. That was certainly the case
with plaintiffs’ trade secrets stolen by Illumina and used to create a
multibillion-dollar monopoly. The district court’s assumption that such
“negative” trade secrets per se lack independent value was simply wrong.

13

CONCLUSION
For the foregoing reasons, this Court should grant the petition for
a writ of certiorari.
Respectfully submitted,
ERIC H. JASO
JASON C. SPIRO
Spiro Harrison
830 Morris Turnpike
Second Floor
Short Hills, NJ 07078
Tel.: (973) 232-0881
ejaso@spiroharrison.com
jspiro@spiroharrison.com
Counsel for Petitioners
Monib Zirvi, Matthew Lubin,
Maria Kempe and Norman Gerry
MAY 2021

Appendix

------------- -

Appx. 1
-

Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 1 of 36

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
MONIB ZIRVI et al.,
18-cv-7003 (JGK)

Plaintiffs,

OPINION AND ORDER

- against JAY T. FLATLEY et al.,
Defendants.
JOHN G. KOELTL, District Judge:

In the Second Amended Complaint (the "Complaint" or "SAC"),
the plaintiffs allege that the defendants have orchestrated a
wide-ranging conspiracy over the past twenty-five years to steal
the plaintiffs' trade secrets consisting of proprietary
discoveries related to the encoding and decoding of DNA. The
plaintiffs are scientists Monib Zirvi, Matthew Lubin, Maria
Kempe, and Norman Gerry. The defendants are scientists and
businesspeople Jay Flatley, David Walt, Stephen Fodor, Kevin
Gunderson, Jian-Bing Fan, Mark Chee, and John Stueplnagel, a
patent lawyer Robin Silva, and biotechnology companies
Affymetrix, P.E. Applied Biosystems, and Illumina, Inc. The
plaintiffs allege claims under the Defend Trade Secrets Act
(DTSA), 18 U.S.C. § 1836, et seq.; the Racketeer Influenced and
Corrupt Organizations Act (RICO), 18 U.S.C. § 1961, et seq.; the
New York common law of trade secrets protections; and claims for
other common law torts of fraud, conversion, tortious

1

Appx. 2
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 2 of 36

interference with prospective business advantage, inequitable
conduct, civil conspiracy, and breach of confidence. The
defendants collectively move to dismiss the Complaint under
Rules 12(b)(1) and 12(b)(6) of the Federal Rules of Civil
Procedure on the grounds that the plaintiffs lack standing, that
the plaintiffs' claims are barred by various statutes of
limitations, and that in any event the facts alleged do not
amount to violations of federal or state law. In addition to
joining the defendants' motion, Stephen Fodor also moves
individually to dismiss the claims against him.
For the reasons set out below, the motions to dismiss the
Complaint are granted and the Complaint is dismissed with
prejudice.
I.
The defendants move to dismiss the Complaint pursuant to
Rule 12(b)(1) of the Federal Rules of Civil Procedure for lack
of subject matter jurisdiction because the plaintiffs allegedly
lack standing to pursue their claims. "Dismissal of a case for
lack of subject matter jurisdiction under Rule 12(b)(1) is
proper 'when the district court lacks the statutory or
constitutional power to adjudicate it.'" Ford v. D.C. 37 Union
Local 1549, 579 F.3d 187, 188 (2d Cir. 2009)

(quoting Makarova

v. United States, 201 F.3d 110, 113 (2d Cir. 2000)). In
considering a Rule 12(b)(1) motion, courts must construe all
2

Appx. 3
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 3 of 36

ambiguities and inferences in a plaintiff’s favor. However, a
court may refer to evidence outside of the pleadings, and the
burden is on the plaintiff to prove by a preponderance of the
evidence that jurisdiction exists. See Makarova, 201 F.3d at
113. "To survive the motion to dismiss, the pleadings must only
allege facts that affirmatively and plausibly suggest that
Plaintiffs have standing to sue." Lowell v. Lyft, Inc., 352 F.
Supp. 3d 248, 255 (S.D.N.Y. 2018)

(quotations and alterations

omitted). "[A]t the pleading stage, standing allegations need
not be crafted with precise detail, nor must the plaintiff prove
his allegations of injury." Baur v. Veneman, 352 F.3d 625, 631
(2d Cir. 2003).
The defendants also move to dismiss the Complaint pursuant
to Rule 12(b)(6). In deciding a motion to dismiss pursuant to
Rule 12(b)(6), the allegations in the complaint are accepted as
true, and all reasonable inferences must be drawn in the
plaintiff's favor. McCarthy v. Dun & Bradstreet Corp., 482 F.3d
184, 191 (2d Cir. 2007). The Court's function on a motion
to dismiss is "not to weigh the evidence that might be presented
at a trial but merely to determine whether the complaint itself
is legally sufficient." Goldman v. Belden, 754 F.2d 1059, 1067
(2d Cir. 1985). The Court should not dismiss the complaint if
the plaintiff has stated "enough facts to state a claim to
relief that is plausible on its face." Bell Atl. Corp. v.
3

Appx. 4
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 4 of 36

Twombly, 550 U.S. 544, 570 (2007). "A claim has facial
plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged." Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009).
Although the Court should construe the factual allegations
in the light most favorable to the plaintiff, "the tenet that a
court must accept as true all of the allegations contained in
the complaint is inapplicable to legal conclusions." Id. at
678. When presented with a motion to dismiss pursuant to Rule
12(b)(6), the Court may consider documents that are referenced
in the complaint, documents that the plaintiff relied on in
bringing suit and that are either in the plaintiff's possession
or that the plaintiff knew of when bringing suit, or matters of
which judicial notice may be taken. See Chambers v. Time Warner,
Inc., 282 F.3d 147, 153 (2d Cir. 2002).
II.
The following facts alleged in the Complaint are accepted
as true for the purposes of ruling on the motions to dismiss.
The plaintiffs' claims, under both federal and New York
State law, arise out of two alleged instances of
misappropriation of trade secrets, one occurring in 1994 when
certain trade secrets were allegedly stolen from a confidential
grant proposal, and one occurring in 1999 when alleged trade
4

Appx. 5
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 5 of 36

secrets were allegedly misappropriated during confidential
communications. The plaintiffs allege that these two acts of
misappropriation resulted in the theft of both positive and
negative trade secrets.1 In order to overcome the various
statutes of limitations, the plaintiffs also allege the
existence of an overarching, twenty-five-year conspiracy of
fraudulent concealment engineered by the defendants that
allegedly prevented the plaintiffs from learning the full extent
of the defendants' misconduct until 2015. Because they allegedly
only discovered the conspiracy in 2015, the plaintiffs allege
that this action, which the plaintiffs filed on August 3, 2018,
is timely because the statutes of limitations should be
equitably tolled until the discovery of the alleged conspiracy.
SAC M

5-6, 9-13, 26-31.

Throughout the early 1990s, the plaintiffs began
collaborating in various capacities with Dr. Francis Barany of
Cornell University Medical College (now Weill Cornell Medical
College) to "creat[e] an entirely novel method for diagnosing
human genetic defects." SAC M

2, 16, 20 (Lubin), 34 (Zirvi), 371

1 The Complaint describes negative trade secrets as "the trade secrets
reflecting, referencing and relating to the thorough scientific process
required to create a trade secret, much of which was unsuccessful and
resulted in experimental dead ends (i.e. negative) but which was crucial in
the ultimate invention and success of the trade secret." SAC 2 12 n.1.

5

Appx. 6
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 6 of 36

(Gerry), 102 (Lubin and Gerry), 196 (Kempe).2 In February 1994,
Barany's team, which included Lubin, submitted a grant proposal
to the National Cancer Institute containing alleged trade
secrets. Id. at 22 102-03. The achievement of the Barany
proposal, allegedly, was "a radical new idea of 'Universal
Addressable Arrays.'" Id. at 2 104. The array was a grid
structure made up of numerous squares in which each square
contained a "man-made designed DNA sequence[]" that the Barany
team referred to as a "zip code" and each square was referred to
as an "address[]." Id. at 2 109(I). The arrays worked together
with a ligase detection reaction ("LDR") in which DNA would be
extracted from a biological sample and matched up to the array
to reveal genetic mutations through a process known as
polymerase chain reaction ("PCR"). Id. at 22 72, 104, 107(3),
109(I), 109(III). The technologies developed by the plaintiffs
throughout the 1990s and early 2000s, and which formed the basis
for numerous patent applications, were all broadly related to
LDR, PCR, zip code array, and DNA sequencing. Id. at 22 135
('917 and '470 patent series), 162 ('594 patent series), 208
('917, 470, and '594 patent series), 259 ('293, '470, and '917
patent series), 310 ('470 and '293 patent series).3

2 Neither Barany nor Cornell University nor any of Cornell's affiliated
entities are plaintiffs in this case.
3 Patent series are referred to throughout the Complaint by the last three
digits of the United States Patent Number. Thus, the '470 patents series
corresponds to Patent No. 6,797,470 issued on September 28, 2004 and based on

6

Appx. 7
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 7 of 36

The first alleged instance of misappropriation occurred on
or around June 1, 1994 when Stephen Fodor, the Chief Technology
Officer of the biotechnology company Affymetrix, in his capacity
as a peer reviewer for the National Institute of Health ("NIH"),
reviewed the Barany proposal. Id. at 2 16. According to the
plaintiffs, upon reviewing the grant proposal, Fodor
"immediately resolved to steal those ideas" contained in the
grant proposal in violation of confidentiality agreements that
he was bound to obey in his capacity as an NIH reviewer. Id. at
22 20, 114-17. Fodor then allegedly enlisted Affymetrix
employees, the defendants Mark Chee, Jian-Bing Fan, and Kevin
Gunderson, to begin filing patent applications based on the
technologies and ideas described in the grant proposal. Id. at
2 123.
According to the plaintiffs, Fodor "deliberately removed
himself as a co-inventor of the October 26th, 1994 patent
application" and instructed Chee, Fan, and Gunderson to file the
patent applications in order to cover his tracks. Id. at 2 125.

a series of applications going back to May 29, 1996 and invented by, among
others, Barany and Lubin. Prakash Decl., Ex. 3. The '917 patent series
corresponds to Patent No. 7,083,917, issued on August 1, 2006 and based on
applications going back to February 4, 1997, and invented by, among others,
Barany, Kempe, and Zirvi. Prakash Decl., Ex. 6. The '293 patent series
corresponds to Patent No. 6,534,293, issued on March 18, 2003 and based on an
application filed on January 6, 1999, and invented by, among others, Barany,
Zirvi, and Gerry. Prakash Decl., Ex. 12. The '594 patent series corresponds
to Patent No. 6,506,594, issued on January 14, 2003 based on applications
going back to March 19, 1999, and invented by, among others, Barany and
Gerry. Prakash Decl., Ex. 16.

7

Appx. 8
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 8 of 36

The October 26, 1994 patent application was one in a series of
related patent applications that eventually resulted in the
final application filed on April 3, 1996 and published as United
States Patent No. 6,156,501 on December 5, 2000. Prakash Decl.,
Ex. 23, at 1:[63]; SAC 2 124. Notwithstanding the allegations in
the Complaint that Fodor deliberately removed himself from these
patent applications, his name appeared on an International
Patent Application that was published to the world on May 4,
1995 under International Publication Number WO 95/11995. Gorman
Decl., Ex. 3. The International Patent, which listed Fodor as an
inventor, had an international application number of
PCT/US94/12305, a number that corresponded to the October 26,
1994 application that was in the chain of applications that
eventually culminated in the '501 patent series. Gorman Decl.,
Ex. 3, at 1:(21); Prakash Decl., Ex. 23, at 1:[63]. The
International Patent was also related by continuation to a
United States patent application numbered 08/284,064 that
corresponded to an application in the chain of applications
culminating in the '501 patent series. Gorman Decl., Ex. 3, at
1:(60); Prakash Decl., Ex. 23, at 1:[63].
On May 1, 1995, Barany allegedly explained "on a strictly
confidential basis" to the defendant, Dr. David R. Walt of Tufts
University, Barany's proprietary discoveries of "Zip Code
chemistry," primers, and probes that could be used to encode and
8

------------- -

Appx. 9
-

Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 9 of 36

decode DNA. SAC 22 132-33. Walt formed the defendant company
Illumina Inc. in 1998, with defendants Chee, Fan, Gunderson, and
John Stueplnagel as founding employees, and Jay Flatley as the
first CEO. Id. at 22 140-42. Beginning in June 1998,
Stueplnagel, Chee, and Gunderson filed several patent
applications that were allegedly derived from the Barany grant
proposal. Id. at 22 143-45, 149. More generally, the plaintiffs
allege that the defendants filed patent applications that were
designed to conceal the alleged source of the work by omitting
certain information from the patent applications that could lead
back to Barany and his team. Id. at 22 143-44, 149-50, 153.
Around this time, the plaintiffs Lubin, Zirvi, Kempe, and
Gerry began to assign their rights in the '470, '917, '293, and
'594 patent series to Cornell and the University of Minnesota,
which later assigned its interests to Cornell. Id. at 22 3, 135,
168, 273, 321; Prakash Decl., Exs. 4, 7, 8, 9, 13, 22.
The second alleged instance of misappropriation occurred in
1999 after Zirvi, then a medical student at Cornell working with
Barany, developed 187 files of Microsoft Excel and Word
documents containing, among other things, the design of 4,633
zip codes including an alleged proprietary set of 465 zip codes.
SAC 2 155. On August 8, 1999, Barany allegedly provided the 187

9

Appx. 10
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 10 of 36

files to Bill Efcavitch of P.E. Biosystems.4 Barany allegedly
instructed Efcavitch to keep the files secret pursuant to a
confidentiality agreement between Cornell and P.E. Biosystems.
Id. at 22 181-83. According to the plaintiffs, P.E. Biosystems
and Illumina were, unbeknownst to the plaintiffs, working
together at the time. Id. at 2 188.
On April 14, 2000, Barany, Zirvi, and Gerry, among others,
filed a provisional patent application, a "Method of Designing
Addressable Array for Detection of Nucleic Acid Sequence
Differences Using Ligase Detection Reaction," which would
eventually be published as United States Patent Number 7,455,965
("'965 patent") on November 25, 2008. Prakash Decl., Ex. 21; SAC
2 284. The '965 patent application was published to the world on
October 25, 2001. Prakash Decl., Ex. 19-1. According to the
Complaint, the '965 patent application "described PCR-LDR, 4,633
zip codes, Universal Arrays, detection of low abundance K-ras
mutations and included substantial data." SAC 2 284.
According to the plaintiffs, the data contained in the 187
files, and particularly in the 465-zip code set, were never
published and were not reproduced by the plaintiffs in the '965
patent filings even though those filings contained zip code

4 Efcavitch is not a defendant in this case. P.E. Biosystems, which is a
defendant in this case is now a division of Thermo Fisher Scientific. SAC
2 49.

10

Appx. 11
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 11 of 36

sets. Id. at 22 155-56. The plaintiffs allege that the precise
order of the 465-zip code set was integral to its value and that
the set, when misappropriated and used by the Illumina
defendants, "became a clear and unmistakable marker for the
theft of Dr. Zirvi's trade secret, much like a finger print or
red ink exploding in a stack of bills stolen during a bank
robbery." Id. at 2 156. Allegedly, the Illumina defendants Chee
and Gunderson used the propriety zip code set in a patent
application on August 25, 2000, entitled "Probes and Decoder
Oligonucleotides." Id. at 2 320. The plaintiffs allege that Chee
and Gunderson "blatantly copied the Barany team Zip Code IP" but
renamed them "Illumacdoes." Id. at 22 320-21.
Then, in 2006, junior parties Barany, Kempe and Zirvi,
among others, brought a patent interference claim before the
United States Patent and Trademark Office alleging that Fodor
and his Affymetrix colleagues had unlawfully derived the October
26, 1994 patent application and a related family of patents from
the Barany grant proposal. Id. at 22 127, 180; Prakash Decl.,
Ex. 25. The Board of Patent Appeals ultimately concluded that
"Barany's motion fails to establish, prima facie, that the
[Affymetrix inventors] derived the subject matter of the count
from Barany." Gorman Decl., Ex. 10, at 9.
On May 24, 2010, Cornell initiated a patent infringement
case against Illumina in the United States District Court for
11

Appx. 12
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 12 of 36

the District of Delaware. Cornell Univ. v. Illumina, Inc., No.
10-cv-433, 2017 WL 89165, at *1 (D. Del. Jan. 10, 2017); see SAC
2 1. In that case, Cornell alleged that Illumina infringed a
number of patents falling into two categories:

(1) array patents

that related to tools that utilize oligonucleotides with
particular sequence properties to detect target molecules, and
(2) LDR-PCR patents that describe the combination of a ligase
detection reaction with polymerase chain reaction to test for
genetic changes. See Cornell, 2017 WL 89165, at *1. That
litigation ended on April 18, 2017 after the parties entered
into a joint stipulation to dismiss the case. Cornell Univ. v.
Illumina, Inc., No. 10-cv-433, Dkt. No. 598 (D. Del. Apr. 24,
2017).
The plaintiffs allege that they learned about the conduct
underlying the Complaint in this case for the first time during
the Cornell v. Illumina, Inc. litigation in 2015, only after
Zirvi was deposed by Illumina lawyers. SAC 22 502-04. According
to the plaintiffs, the deposition of Zirvi was the initial
thread that, once pulled, revealed a complex, multi-decade
concerted effort to conceal the defendants' theft, as manifested
in the years of patent filings containing alleged purloined
trade secrets. Id. at 22 515-35. The plaintiffs allege that they
could not have discovered the defendants' actions sooner because
the defendants had taken great pains to cover their tracks by
12

Appx. 13
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 13 of 36

filing patents under various names and using different
variations and combinations of technical terms in order to
disguise the scheme of theft and fraud. Id. at 22 339, 344, 347,
353, 363, 366, 371-483.
On August 8, 2018, the plaintiffs initiated this action,
alleging violations by all or some of the defendants of the
DTSA, civil RICO, New York common law trade secrets protections
and other common law torts. Dkt. No. 13. On December 6, 2018,
the plaintiffs filed an amended complaint, which amplified the
claims in the original complaint by adding more facts, and which
also added a claim for inequitable conduct against Robin Silva,
a lawyer for Illumina. Dkt. No. 102. On February 8, 2019, the
plaintiffs filed a second amended complaint, which contained the
same claims and basic set of facts as the first amended
complaint. Dkt. No. 127. The defendants now move to dismiss the
Complaint.
III.
The gravamen of the Complaint is that the defendants
misappropriated the plaintiffs' trade secrets in violation of
both federal and New York state law in 1994 and 1999. The
plaintiffs argue that two separate acts of alleged
misappropriation - (1) Fodor's misappropriation of the Barany
proposal in 1994, and (2) the Illumina defendants'
misappropriation of Barany's and Zirvi's proprietary 465 zip
13

Appx. 14
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 14 of 36

codes in 1999 - resulted in the defendants' wrongful ownership
of trade secrets that broadly fall into three categories - (1)
positive trade secrets contained in the 1994 Barany proposal,
(2) positive trade secrets contained in the 1999 proprietary zip
codes, and (3) negative trade secrets derived from both acts of
misappropriation that include the experimental knowhow and dead
ends that allegedly have independent economic value to a
competitor seeking to replicate the plaintiffs' experimental
results.
Although the defendants dispute that the factual
allegations in the Complaint state a claim for misappropriation
under either New York or federal law, their primary argument in
favor of dismissal is that any viable claim is barred by the
applicable statute of limitations. Because the defendants are
correct that the Complaint should be dismissed on statute of
limitations grounds, that issue will be discussed first.5

5 The defendants also move to dismiss the Complaint for lack of standing. The
defendants argue that the plaintiffs either assigned their rights to others,
namely Cornell, or developed their intellectual property on behalf of others,
also Cornell, and therefore lack a sufficient interest in the intellectual
property to bring their claims. Usually, a Rule 12(b)(1) motion is addressed
before a Rule 12(b)(6) motion because the former affects the Court's subject
matter jurisdiction. See Rhulen Agency, Inc. v. Ala. Ins. Guar. Ass'n, 896
F.2d 674, 678 (2d Cir. 1990). However, what the defendants describe as a
question of standing is, in fact, a question about whether the plaintiffs can
state a claim under the law, a question formerly known as statutory standing.
See Lexmark Int'l., Inc. v. Static Control Components, Inc., 572 U.S. 118,
128 n.4 (2014); Am. Psychiatric Ass'n v. Anthem Health Plans, Inc., 821 F.3d
352, 359 (2d Cir. 2016) ("The Supreme Court has recently clarified, however,
that what has been called 'statutory standing' in fact is not a standing
issue, but simply a question of whether the particular plaintiff 'has a cause
of action under the statute.'") (quoting Lexmark, 572 U.S. at 127). The
question whether the plaintiffs "owned" or "possessed" the alleged trade

14

Appx. 15
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 15 of 36

A.
"Although the statute of limitations is ordinarily an
affirmative defense that must be raised in the answer, a statute
of limitations defense may be decided on a Rule 12(b)(6) motion
if the defense appears on the face of the complaint." Ellul v.
Congregation of Christian Bros., 774 F.3d 791, 798 n.12 (2d Cir.
2014). In this case, the plaintiffs affirmatively pleaded the
defendants' fraudulent concealment in order to overcome the
statutes of limitations. Therefore, it is appropriate for the
Court to decide the statute of limitations defense on this Rule
12(b)(6) motion.
i.
The federal claims in this case are subject to three- or
four-year statutes of limitations. DTSA claims are subject to a
three-year statute of limitations. See 18 U.S.C. § 1836(d). The
limitations period runs from "the date on which the
misappropriation with respect to which the action would relate

secrets is not a question of constitutional standing, but a question whether
the plaintiffs can state a claim under either the DTSA or New York state law.
See 18 U.S.C. § 1839(4) ("An owner of a trade secret that is misappropriated
may bring a civil action under this subsection if the trade secret is related
to a product or service used in, or intended for use in, interstate or
foreign commerce."); Faiveley Transp. Malmo AB v. Wabtec Corp., 559 F.3d 110,
117 (2d Cir. 1999) ("To succeed on a claim for the misappropriation of trade
secrets under New York law, a party must demonstrate: (1) that it possessed a
trade secret, and (2) that the defendants used that trade secret in breach of
an agreement, confidential relationship or duty, or as a result of discovery
by improper means."). The Court could not resolve these issues on a motion to
dismiss because there are factual disputes about the circumstances under
which the intellectual property was developed.

15

Appx. 16
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 16 of 36

is discovered or by the exercise of reasonable diligence should
have been discovered," or, in other words, when the plaintiff
"knew or should have known that the alleged trade secrets were
wrongfully acquired, disclosed, or used." Uni-Systems, LLC v.
United States Tennis Ass'n, Inc., 350 F. Supp. 3d 143, 178
(E.D.N.Y. 2018). RICO claims are subject to a four-year statute
of limitations and accrual dates under the RICO statute are
similarly determined when the plaintiff knew or should have
known of the alleged injury. See Koch v. Christie's Int'l PLC,
699 F.3d 141, 148, 150-51 (2d Cir. 2012)

("As a general matter,

the limitations period does not begin to run until a plaintiff
has actual or inquiry notice of the injury.")

(quotation marks,

citation, and alterations omitted).
In this case, the date on which the alleged
misappropriation "by the exercise of reasonable diligence should
have been discovered" has long since passed. There are multiple
events that the plaintiffs themselves described in the Complaint
that triggered the statute of limitations. First, contrary to
the plaintiffs' suggestion otherwise, Fodor's name appeared in
the chain of patent applications that the plaintiffs allege
contained trade secrets taken from the Barany grant proposal
that culminated in the '501 patent series because it appeared on
the face of the International Patent that explicitly crossreferenced the United States '501 Patent and the October 26,
16

Appx. 17
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 17 of 36

1994 patent application. The existence of a patent application
or a public patent puts parties on notice of their existence and
therefore starts the clock on the limitations period. See
Advanced Cardiovascular Sys., Inc. v. Medtronic Vascular, Inc.,
182 F. App'x 994, 999 (Fed. Cir. 2006)

(per curiam)

(patent

applications put parties on constructive notice); WesternGeco v.
Ion Geophysical Corp., No. 09-cv-1827, 2009 WL 3497123, at *5
(S.D. Tx. Oct. 28, 2009)

("In the same way that the issuance of

a patent by the PTO constitutes notice to the entire world of
its existence, regardless of whether other persons take it upon
themselves to examine the records, so too, by extension, do the
applications published under the [Patent Cooperation Treaty]
constitute notice to the world of their existence . . . .").
Second, the Complaint itself refers to the 465-zip code set
allegedly misappropriated in 1999 as a "clear and unmistakable
marker for the theft of Dr. Zirvi's trade secret, much like a
finger print or red ink exploding in a stack of bills stolen
during a bank robbery." SAC 1 156. Based on the allegations in
the Complaint, the events in 1999 concerning the alleged
misappropriation 187 files and the 465-zip code set also
commenced the statute of limitations because any definition of
"reasonable diligence" would encompass the duty to discover
alleged wrongdoing at the time in which a self-described "clear
and unmistakable marker" of theft allegedly appeared in public
17

Appx. 18
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 18 of 36

patent applications. Indeed, the plaintiffs' own allegations
indicate that the 465 zip codes appeared in an August 25, 2000
patent application, although in a different order. SAC

155,

275. Thus, with respect to the alleged misappropriation in 1999,
the plaintiffs are "chargeable with knowledge which by ordinary
diligence [they] would have acquired." Barrio Bros., LLC v.
Revolucion, LLC, No 18-cv-2052, 2019 WL 5213039, at *3 (N.D.
Ohio Oct. 16, 2019)

(quotation marks and citation omitted).

Finally, the statutes of limitations began to run no later
than the dates of the patent interference proceedings before the
USPTO and the litigation in the federal district court in
Delaware. In 2006, two plaintiffs in this action, Zirvi and
Kempe, were named as junior parties in the interference before
the USPTO. Gorman Decl., Ex. 25. In 2010, Cornell University,
the assignee of many of the patents relevant in this case, sued
Illumina, Inc. regarding many of the same patents, which, at the
very least, put the plaintiffs in this case on inquiry, if not
actual, notice. See Maatuk v. Emerson Elec., No. 16-cv-3023,
2017 WL 9485679, at *8-9 (N.D. Ohio Nov. 14, 2017)

(proceedings

before the USPTO triggered a duty to inquire into alleged acts
of misappropriation), report and recommendation adopted, 2018 WL
562934 (N.D. Ohio Jan. 24, 2018), aff'd, 781 F. App'x 1002 (Fed.
Cir. 2019); 421-A Tenants Ass'n, Inc. v. 125 Court Street LLC,
760 F. App'x 44, 48-49 (2d Cir. 2019)
18

(the commencement of

------------- -

Appx. 19
-

Case 1:18-cv-07003-JGK Document 173 Filed 01/14/20 Page 19 of 36

substantially similar claims in state court put the plaintiffs
on inquiry notice).
Therefore, whether the accrual date was in 1994, 1999,
2006, or 2010, the federal statutes of limitations have long
since passed. The federal claims are therefore barred by the
relevant statutes of limitations.
ii.
Apart from the state law fraud claim and the claims for
injunctive relief, which are subject to six-year statutes of
limitations, N.Y. C.P.L.R. § 213(1),

(8), the plaintiffs' state

law claims for damages are subject to three-year statutes of
limitations because they are all actions to recover damages for
an injury to property. See N.Y. C.P.L.R. § 214(4); Andrew
Greenberg, Inc. v. Svane, Inc., 830 N.Y.S.2d 358, 362 (App. Div.
2007)

(state law misappropriation); Carlingford Ctr. Point

Assocs. v. MR Realty Assocs., L.P., 772 N.Y.S.2d 273, 274 (App.
Div. 2004)

(breach of fiduciary duty); Harley v. Druzba, 565

N.Y.S.2d 278, 279-80 (App. Div. 1991)

(breach of confidence);

Ingrami v. Rovner, 847 N.Y.S.2d 132, 134 (App. Div. 2007)
(unjust enrichment); Sporn v. MCA Records, Inc., 451 N.Y.S.2d
750, 751 (App. Div. 1982), aff'd 448 N.E.2d 1324 (N.Y. 1983)
(unfair competition); Collymore v. Sec'y of Hous. & Urban Dev.,
803 N.Y.S.2d 123, 124 (App. Div. 2005)

19

(conversion); CDx Labs.,

------------- -

Appx. 20
-

Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 20 of 36

Inc. v. Zila, Inc., 79 N.Y.S.3d 285, 287 (App. Div. 2018)
(tortious interference with business relations).6
New York law governing the accrual of statutes of
limitations is less permissive for plaintiffs than the law under
the DTSA or RICO. Statutes of limitations accrue for
misappropriation claims when the defendant first discloses the
trade secret or when the defendant first makes use of the
plaintiff's ideas. See GeoVector Corp. v. Samsung Elecs. Co.
Ltd., 234 F. Supp. 3d 1009, 1014 (N.D. Cal. 2017)

(applying New

York law). Many of the plaintiffs' other state law claims
similarly accrue upon the alleged breach or tortious act. See,
e.g., Ciccone v. Hersh, 530 F. Supp. 2d 574, 579 (S.D.N.Y. 2008)
(breach of fiduciary duty), aff'd, 320 F. App'x 48 (2d Cir.
2009); Sporn, 58 N.Y.2d at 488 (conversion); Thome v. Alexander
& Louisa Calder Found., 890 N.Y.S.2d 16, 30 (App. Div. 2009)
(tortious interference with prospective business advantage).7

6 "[C]onspiracy is not an independent tort, and is time-barred when the
substantive tort underlying it is time-barred." Schlotthauer v. Sanders, 545
N.Y.S.2d 197, 199 (App. Div. 1989). Therefore, to the extent that the civil
conspiracy claims rest on any or all of the underlying state law torts
subject to three-year statutes of limitations, the claims for civil
conspiracy are also subject to three-year statutes of limitations.
7 Because a conspiracy tort "is time-barred when the substantive tort
underlying it is time-barred," Schlotthauer, 545 N.Y.S.2d at 199, the
conspiracy claims accrue at the same time that the underlying tort accrues.
See also Rutkin v. Reinfeld, 229 F.2d 248, 252 (2d Cir. 1956) ("The person
harmed by the conspiracy may bring suit as soon as the damage to him is
inflicted . . . and the statute therefore begins to run at the moment such
injury occurs.").

20

Appx. 21
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 21 of 36

In this case, the plaintiffs' state law claims arise out of
the same factual allegations as their DTSA and RICO claims.
Thus, for substantially the same reasons that the statutes of
limitations have run on the DTSA and RICO claims, the statutes
of limitations have run on the state law claims, whether
governed by the three-year or six-year limitations period. The
alleged misconduct in this case occurred in 1994 and 1999, at
which point the claims accrued, and therefore the state law
claims are barred by the statutes of limitations. See
Synergetics USA, Inc. v. Alcon Labs., No. 08-cv-3669, 2009 WL
2016872, at *2 (S.D.N.Y. July 9, 2009)

("Misappropriation first

accrues either when defendant discloses the trade secret or when
he first makes use of plaintiff's ideas.")

(internal quotation

marks and citation omitted).
iii.
The plaintiffs nevertheless argue that the statutes of
limitations should be equitably tolled under the doctrine of
fraudulent concealment. "Under federal common law, a statute of
limitations may be tolled due to the defendant's fraudulent
concealment if the plaintiff establishes that:

(1) the defendant

wrongfully concealed material facts relating to defendant's
wrongdoing;

(2) the concealment prevented plaintiff's discovery

of the nature of the claim within the limitations period; and
(3) the plaintiff exercised due diligence in pursuing the
21

Appx. 22
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 22 of 36

discovery of the claim during the period plaintiff seeks to have
tolled." Koch, 699 F.3d at 157 (internal quotation marks and
citation omitted). "Allegations of fraudulent concealment are
subject to the particular pleading requirements set forth in
Federal Rule of Civil Procedure 9(b)." In re Issuer Plaintiff
Initial Pub. Offering Antitrust Litig., No. 00-cv-7804, 2004 WL
487222, at *3 (S.D.N.Y. Mar. 12, 2004). In cases in which the
plaintiffs allege fraudulent concealment, due diligence requires
the plaintiffs, among other things, to review relevant patent
applications when they are filed because they may contain
alleged trade secrets. See Ferring B.V v. Allergan, Inc., 4 F.
Supp. 3d 612, 632 (S.D.N.Y. 2014)

("Either Ferring never

conducted the review [of patent applications] it claims it did,
which is fatal to its equitable tolling theory, or it conducted
a review but, through lack of reasonable diligence, failed to
recognize that the patent application contained confidential
Ferring information, which likewise is fatal.").
The plaintiffs have not alleged with particularity that the
defendants fraudulently concealed their various misappropriation
claims as required by Rule 9(b), and in particular that the
defendants wrongfully concealed material facts related to the
defendants' alleged wrongdoing. See Anwar v. Fairfield Greenwich
Ltd., 286 F.R.D. 258, 260 (S.D.N.Y. 2012)

("Rule 9(b) also

requires a plaintiff to plead with particularity facts giving
22

Appx. 23
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 23 of 36

rise to a strong inference that each defendant acted with the
requisite state of mind, or scienter."). For example, one of the
plaintiffs' primary allegations in support of their argument for
fraudulent concealment is that a lawyer, Robin Silva,
orchestrated Illumina's patent filings over many years in such a
way that the subject matter of their patents could not be traced
back to the plaintiffs' trade secrets. However, the plaintiffs
do not allege these acts of fraudulent concealment with
particularity, but rather state in conclusory terms that the
defendants' authorship of their patents was carried out in
deliberately fraudulent ways. See Anwar, 286 F.R.D. at 260.8
Even more fatal to the plaintiffs' argument, however, is
that for the same reasons that the plaintiffs had inquiry,
actual, or constructive notice of alleged wrongdoing as early as
1994 and no later than 2010 for statute of limitations purposes,
equitable tolling is also not appropriate in this case because
the plaintiffs did not act, and could not have acted, with due
diligence in this case given that they allegedly discovered the
alleged impropriety in 2015. See 421-A Tenants Ass'n, 760 F.
App'x at 50 ("The tenants' failure to prosecute their lawsuit
once on inquiry notice forecloses their argument that they acted

8 These pleading deficiencies could be cured, in theory, with an amended
complaint. However, the fraudulent concealment allegations fail for other
reasons that could not be cured by amendment and therefore dismissal with
prejudice is appropriate.

23

Appx. 24
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 24 of 36

with 'reasonable diligence,' a prerequisite for equitable
tolling."). Indeed, the Complaint along with documents
incorporated by reference directly undermine the plaintiffs'
argument that they acted with the "[r]easonable diligence [that]
is a prerequisite to the applicability of equitable tolling."
Koch, 699 F.3d at 157. This is so for several reasons.
First, Fodor's name appeared on at least one patent
application in connection with the '501 patent series no later
than 1995, which undermines the plaintiffs' allegations that
Fodor fraudulently omitted his name from patent applications in
order to cover his tracks. Second, the existence of the "clear
and unmistakable marker for the theft of Dr. Zirvi's trade
secret" that the Illumina defendants allegedly included in some
of their patent applications likewise imposed upon the
plaintiffs a duty of reasonable diligence, the failure of which
undermines their argument for equitable tolling. See Zhongwei
Zhou v. Wu, No. 14-cv-1775, 2017 WL 1233994, at *6 (S.D.N.Y.
Mar. 31, 2017)

("In short, Plaintiffs waited years before

bringing this case. The record reflects that they failed to
exercise reasonable diligence in pursuing the facts and
investigating their suspicions while their claims were still
timely[.]"). Finally, the matters in this case are substantially
similar to the ones that Barany and Cornell litigated before the
USPTO and in the District of Delaware, matters about which
24

Appx. 25
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 25 of 36

plaintiffs were either actually aware because they were named in
the litigation or constructively aware because the proceedings
were public. Due diligence required the plaintiffs to
investigate any alleged misappropriation when these events
occurred. See Landow v. Wachovia Secs., 966 F. Supp. 2d 106, 129
(S.D.N.Y. 2013)

("One who suspects a defendant of widespread

fraud may be under a duty to see if others have sued the
defendant and whether such suits revealed evidence of the fraud
of which the plaintiff complains.")

(quoting Cohen v. S.A.C.

Trading Corp., 711 F.3d 353, 363 (2d Cir. 2013)).
Each one of these events demonstrates a lack of due
diligence on the part of the plaintiffs and therefore each
event, by itself, is fatal to the plaintiffs' argument that
equitable tolling should apply in this case. Taken as a whole,
the plaintiffs' allegations of fraudulent concealment fail
because the plaintiffs have not alleged with particularity the
fraudulent concealment that the defendants allegedly engineered
and because the facts alleged show that the plaintiffs were on
notice, which required them to pursue their claims with due
diligence. The timeline of events undermines any argument that
the plaintiffs acted with reasonable diligence in investigating
the alleged wrongdoing, as a matter of law, and no amended
complaint could cure such deficiencies.

25

Appx. 26
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 26 of 36

Therefore, the plaintiffs are not entitled to equitable
tolling of the statutes of limitations.
B.
The federal claims in this case should also be dismissed
because the plaintiffs failed to allege actionable post­
enactment conduct. The DTSA became effective on May 11, 2016, at
which point it created, among other things, a private right of
action to sue for misappropriation of trade secrets and it also
amended RICO to include the misappropriation of trade secrets as
an enumerated predicate act. See Defend Trade Secrets Act of
2016, Pub. L. No. 114-153, May 11, 2016, 130 Stat. 376, 376-382.
The DTSA does not apply retroactively, but applies only to
misappropriation for which "any act occurs on or after the date
of the enactment of this Act." Id. at 381-82; RCC Ventures, LLC
v. Am. DG Energy, Inc., No. 17-cv-3007, 2018 WL 1415219, at *3
(S.D.N.Y. Mar. 19, 2018)

("Because the only allegations of

misappropriation of a trade secret that are pled with
particularly predate the enactment of the DTSA, RCC has not
stated a claim upon which relief may be granted.").9

9 Some courts have held that the DTSA applies to pre-enactment conduct if the
misappropriation continues after the enactment date. See Brand Energy &
Infrastructure Servs., Inc. v. Irex Contracting Grp., No. 16-2499, 2017 WL
1105648, at *4 (E.D. Pa. Mar. 24, 2017) (collecting cases); Veronica Foods
Co. v. Ecklin, No. 16-cv-7223, 2017 WL 2806706, at *13 (N.D. Cal. June 29,
2017) ("Courts have generally held that the DTSA applies to misappropriations
that began prior to the DTSA's enactment if the misappropriation continues to
occur after the enactment date, so long as the defendant took some relevant
act after that date.") (quotation marks and citation omitted). In this case,
there are no plausible allegations that any relevant pre-enactment conduct

26

Appx. 27
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 27 of 36

In this case, the alleged misappropriation occurred in 1994
when Fodor allegedly stole the contents of the Barany grant
proposal and then in 1999 when the Illumina defendants allegedly
misappropriated the 187 files. These events occurred well before
May 11, 2016, and therefore the plaintiffs cannot sue for these
alleged acts misappropriations under the DTSA.
For the same reason, the RICO claims should also be
dismissed. RICO makes it unlawful for a person to receive income
"from a pattern of racketeering activity." 18 U.S.C. § 1962. A
"pattern of racketeering activity requires at least two acts of
racketeering activity[.]" 18 U.S.C. § 1961(5). To the extent
that the plaintiffs allege misappropriation of trade secrets in
violation of federal law to be the RICO predicates, that claim
fails because the plaintiffs have not alleged any violation of
the DTSA that post-dated the statutory enactment. See Democratic
Nat'l Comm. v. Russ. Fed'n, 392 F. Supp. 3d 410, 442 (S.D.N.Y.
2019)

("Therefore, alleged violations of sections 1832 and 1832

[for misappropriation of trade secrets] can serve as predicate
acts only for offenses occurring after May 11, 2016.").*
10

continued after May 11, 2016. See Cave Consulting Grp., Inc. v. Truven Health
Analytics, No. 15-cv-2177, 2017 WL 1436044, at *5 (N.D. Cal. Apr. 24, 2017)
("The Court finds that without facts about when post-enactment use occurred
and whether the information disclosed was new or somehow different from the
prior misappropriation, plaintiff has failed to state a claim under the
DTSA.").
10 To the extent that the plaintiffs allege that the predicate RICO acts were
instances of mail or wire fraud under 18 U.S.C. §§ 1341, 1343, that claim
fails because the allegations in the Complaint on that point consist solely

27

Appx. 28
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 28 of 36

C.
Further, most of the misappropriation claims, either under
federal or New York state law, should be dismissed for failure
to state a claim upon which relief can be granted.11
In order to state a claim for misappropriation of trade
secrets, a plaintiff must allege the existence of a trade
secret, which under New York law is "any formula, pattern,
device or compilation of information which is used in one's
business, and which gives one an opportunity to obtain an
advantage over competitors who do not know or use it." E.J.
Brooks Co. v. Cambridge Sec. Seals, 105 N.E.3d 301, 310 (N.Y.
2018)

(internal quotation marks, citation, and alterations

omitted). Additionally, a plaintiff must allege that the
defendant obtained the trade secret through improper means. See
Free Country Ltd. v. Drennen, 235 F. Supp. 3d 559, 567 (S.D.N.Y.
2016)

(using proprietary information "in breach of an agreement

or confidential relationship" may constitute misappropriation);
see also Kewanee Oil Co. v. Bicron Corp., 416 U.S. 470, 476

of alleged fraudulent misstatements made before the USPTO, which cannot form
the basis of mail or wire fraud. See Semiconductor Energy Lab. Co. v. Samsung
Electronics Co., 204 F.3d 1368, 1380 (Fed. Cir. 2000) ("[I]nequitable conduct
before the PTO cannot qualify as an act of mail fraud or wire fraud for
purposes of the [RICO] predicate act requirement.").
11 Courts in the Southern District of New York often use New York state law
cases when discussing misappropriation claims under the DTSA because the
Second Circuit Court of Appeals has not yet addressed the DTSA in a reported
opinion and the requirements are similar under state and federal law. See
Medidata Sols., Inc. v. Veeva Sys., Inc., No. 17-cv-589, 2018 WL 6173349, at*
*3 n.1 (S.D.N.Y. Nov. 26, 2018).

28

Appx. 29
Case 1:18-cv-07003-JGK

(1974)

Document 173

Filed 01/14/20

Page 29 of 36

("A trade secret law, however, does not offer protection

against discovery by fair and honest means, such as by
independent invention, accidental disclosure, or by so-called
reverse engineering[.]").
"Although the Second Circuit has not articulated a
specificity requirement, district courts in this circuit
routinely require that plaintiffs plead their trade secrets with
sufficient specificity to inform the defendants of what they are
alleged to have misappropriated." ExpertConnect, L.L.C. v.
Fowler, No 18-cv-4828, 2019 WL 3004161, at *4 (S.D.N.Y. July 10,
2019). The existence of a trade secret is generally a question
of fact, but in some situations whether information is a trade
secret may be evident from the pleadings alone. See Big Vision
Private Ltd. v. E.I. DuPont De Nemours & Co., 1 F. Supp. 3d 224,
267 (S.D.N.Y. 2014), aff'd, 610 F. App'x 69 (2d Cir. 2015).
Courts dismiss trade secrets claims when the alleged trade
secrets are not, in fact, secret, or when the plaintiffs have
not alleged sufficiently how the secrets derive independent
economic value from not being generally known. See Vendavo, Inc.
v. Price f(x) AG, No. 17-cv-6930, 2018 WL 1456697, at *4 (N.D.
Cal. Mar. 23, 2018)

("[P]laintiff must describe the subject

matter of the trade secret with sufficient particularity to
separate it from matters of general knowledge in the trade or of
special persons who are skilled in the trade, and to permit the
29

Appx. 30
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 30 of 36

defendant to ascertain at least the boundaries within which the
secret lies."); Democratic Nat'l Comm., 392 F. Supp. 3d at 448
("The DNC has not identified anything about the process of
developing donor lists or fundraising strategies or shown how
their particular value derives from their secrecy.").
In this case, the plaintiffs' allegations concerning
misappropriation of negative trade secrets fail for two reasons.
First, these allegations "resemble . . . broad categories of
information" and are "vague," which, by itself, constitutes a
reason to dismiss the claims. See AlterG, Inc. v. Boost
Treadmills LLC, 388 F. Supp. 3d 1133, 1145 (N.D. Cal. 2019). The
plaintiffs have therefore failed to identify their alleged
secrets with "sufficient particularity" in order to apprise the
defendants and the Court what information contained in the
alleged negative trade secrets is truly secret and what
information is not. See Big Vision Private, 1 F. Supp. 3d at
266-67.
Second, the plaintiffs have failed to allege how these
negative trade secrets derive independent economic value from
not being generally known given the existence of volumes of
information publicly available in the patent applications and
patents described in the Complaint. See E.J. Brooks, 105 N.E.3d
at 316 ("A trade secret, by definition, must have economic value
and provide a competitive advantage due to the exclusive use of
30

Appx. 31
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 31 of 36

a product or technique."). It is difficult to see how negative
trade secrets consisting of unsuccessful efforts to develop
trade secrets and experimental dead ends, see SAC 1 12 n.1, can
have independent economic value when the end result of the
process, the positive trade secrets, have in fact been
uncovered.
The plaintiffs have also failed to allege that the 187
files containing the 465-zip code set are a trade secret.
Although the plaintiffs described these alleged trade secrets
with sufficient particularity, the plaintiffs have failed to
allege how this zip code set derives independent economic value
from not being publicly known given the quantity of similar zip
code sets publicly available, particularly in the roughly
contemporaneously published '965 patent series. See Sarkissian
Mason, Inc. v. Enter. Holdings, Inc., 955 F. Supp. 2d 247, 257­
58 (S.D.N.Y. 2013)

("The components of the system are widely

known, and the concept as a whole is of limited value because it
is readily ascertainable. Thus, AutoMatic Buying System as an
unexecuted concept is not a trade secret as a matter of law."),
aff'd, 572 F. App'x 19 (2d Cir. 2014)
Therefore, the plaintiffs have failed to state a claim for
misappropriation with respect to the negative trade secrets and

31

Appx. 32
Case 1:18-cv-07003-JGK

Document 173

Filed 01/14/20

Page 32 of 36

the 465-zip code set contained in the 187 files.12 Moreover,
because these claims are barred by the statutes of limitations
as explained above, repleading would be futile, and the claims
are appropriately dismissed with prejudice. See Wallace v. NYC
Dept. of Corr., 112 F. App'x 794, 795 (2d Cir. 2004)

(amendment

is futile where the statute of limitations has long since run);
Ferring, 4 F. Supp. 3d at 618-19.
D.
Finally, the plaintiffs have failed to state a claim for
the non-misappropriation common law claims for fraud, breach of
fiduciary duty, conversion, tortious interference with
prospective economic advantage, inequitable conduct, civil
conspiracy, and breach of confidence.

12 The plaintiffs may have survived a motion to dismiss the allegations of
Fodor's misappropriation of trade secrets based on the alleged theft of the
contents in the Barany proposal had those claims been brought in a timely
complaint. Unlike the 187 files allegedly misappropriated in 1999, which were
then published in substance by the plaintiffs themselves in the '965 patent
series, the information contained in the Barany proposal allegedly formed the
basis for the Affymetrix defendants' patent applications beginning in 1994.
Moreover, the plaintiffs alleged with particularity the contents of the
Barany proposal and which aspects of the technologies described therein
constituted the alleged trade secrets. These allegations, along with
allegations concerning the time and resources spent by both the plaintiffs
and the defendants engaged in this work would tend to demonstrate the
independent economic value of the description of the technology in the Barany
proposal. See ExpertConnect, 2019 WL 3004161 at *5 (collecting cases
concerning independent economic value). Finally, the plaintiffs alleged that
Fodor misappropriated any information contained in the Barany grant proposal
because he used it in violation of his NIH confidentiality agreement. See
Free Country Ltd., 235 F. Supp. 3d at 567. Nevertheless, as explained above,
these claims from over twenty-five years ago are plainly barred by the
statute of limitations.

32

Appx. 33
Case 1:18-cv-07003-JGK Document 173 Filed 01/14/20 Page 33 of 36

The plaintiffs' allegations of fraud fail because the
plaintiffs have not pleaded any false statements or omissions
made by the defendants upon which the plaintiffs reasonably
relied. See Wall v. CSX Transp., Inc., 471 F.3d 410, 415-16 (2d
Cir. 2006)

("Proof of fraud under New York Law requires a

showing that (1) the defendant made a material false
representation,

(2) the defendant intended to defraud the

plaintiff thereby,

(3) the plaintiff reasonably relied upon the

representation, and (4) the plaintiff suffered damage as a
result of such reliance.")

(quotation marks and citation

omitted).
The plaintiffs' claim for conversion lacks merit because
the conversion of intangible property is not actionable under
New York State law. See Matzan v. Eastman Kodak Co., 521
N.Y.S.2d 917, 918 (App. Div. 1987)

("There is no protected

interest in an idea, but only in the tangible expression or
implementation of that idea. It thus cannot be the subject of
conversion."). Moreover, the mere fact that the alleged act of
conversion involved learning intangible ideas from tangible
documents does not make the claim actionable. See Rao v. Verde,
635 N.Y.S.2d 660, 661 (App. Div. 1995)

("While the plaintiff

claims that the conversion cause of action remains viable
because the defendants continued to use information that they

33

Appx. 34
Case 1:18-cv-07003-JGK Document 173 Filed 01/14/20 Page 34 of 36

learned from such documents, this amounts to a claim for
conversion of intangible property[.]").
The plaintiffs' allegations that the defendants tortiously
interfered with the plaintiffs' prospective economic advantage
are deficient because the plaintiffs have not pleaded specific,
non-generalized interference with particular and ongoing
business relationships in order to plead this tort. See Camp
Summit of Summitville, Inc. v. Visinski, No. 06-cv-4994, 2007 WL
1152894, at *14 (S.D.N.Y. Apr. 16, 2007)

("Generalized

allegations of impairment to claimant's ability to attract new
business will not suffice.")

(internal quotation marks,

citation, and alterations omitted); Bus. Networks of N.Y., Inc.
v. Complete Network Sols. Inc., 696 N.Y.S.2d 433, 435 (App. Div.
1999)

("[T]he cause of action for tortious interference with

prospective business relations should have been dismissed for
failure to allege any specific prospective relationship with
which defendants interfered[.]").
The plaintiffs cannot state a cause of action based on
alleged inequitable conduct before the USPTO because inequitable
conduct cannot comprise a civil claim for damages, but is
instead an equitable defense in a patent infringement case. See
Therasense, Inc. v. Becton, Dickinson & Co., 649 F.3d 1276, 1285
(Fed. Cir. 2011)

("Inequitable conduct is an equitable defense

to patent infringement that, if proved, bars enforcement of a
34

Appx. 35
Case 1:18-cv-07003-JGK Document 173 Filed 01/14/20 Page 35 of 36

patent."); Solomon v. Khoury, No. CV 16-10176, 2017 WL 598758,
at *3 (D. Mass. Feb. 13, 2017)

("[I]nequitable conduct is not an

affirmative allegation that can be brought forth in a
complaint.").
The plaintiffs cannot state a claim based on civil
conspiracy because there is no independent tort of civil
conspiracy under New York law. See McCarthy v. Weaver, 472
N.Y.S.2d 64, 65 (App. Div. 1984)

("Similarly, the seventh cause

of action, which purports to state a claim for civil conspiracy,
should be dismissed because there is no substantive tort of
civil conspiracy in New York."). Where, as in this case, the
plaintiffs' substantive claims are dismissed, there is no basis
for a claim of conspiracy. See Kirch v. Liberty Media Corp., 449
F.3d 388, 401 (2d Cir. 2006)

(failure to state a cause of action

for torts underlying the alleged conspiracy requires that the
claim for civil conspiracy be dismissed).
The plaintiffs fail to plead breach of confidence claims
related to the two acts of misappropriation, in 1994 and in
1999, because an express contract allegedly covered the
relationships at issue, and therefore there is no basis for an
independent tort claim. See G5 Techs., Inc. v. Int'l Bus. Machs.
Corp., No. 04-cv-1201, 2005 WL 2271741, at *14 (S.D.N.Y. Sept.
19, 2005)

(disclosure in alleged violation of an express

confidentiality agreement precludes a claim based on breach of
35

Appx. 36
Case 1:18-cv-07003-JGK Document 173 Filed 01/14/20 Page 36 of 36

an implied confidentiality agreement). In this case, the
plaintiffs allege that Fodor breached the express terms of his
confidentiality agreement with Barany and the NIH in 1994. The
plaintiffs also allege the Efcavitch and Applied Biosystems
breached the terms of the confidentiality agreement between
Cornell and Applied Biosystems in 1999.
The plaintiffs' non-misappropriation state law claims
should therefore be dismissed for the additional reason that the
plaintiffs cannot allege facts giving rise to these claims.
CONCLUSION
Therefore, the plaintiffs' Complaint is dismissed in its
entirety. Because the plaintiffs have amended the Complaint
twice before, and because further amendments would be futile,
the complaint is dismissed with prejudice. The Court has
considered all of the arguments raised by the parties. To the
extent not addressed specifically above, the arguments are
either moot or without merit. The Clerk is directed to enter
judgment dismissing this case with prejudice. The Clerk is also
directed to close all pending motions, and to close this case.
SO ORDERED.
Dated:
New York, New York
January 14, 2020

____ /s/ John G. Koeltl________
John G. Koeltl
United States District Judge

36

Appx. 37
Case 20-546, Document 111-1, 12/11/2020, 2991760, Pagel of 10

20-546-cv
Monib Zirvi, et al. v. Jay T. Flatley, et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Ru l i n g s

. Ci t a t i o n t o a
2007, IS PERMITTED AND IS GOVERNED BY
Fe d e r a l Ru l e o f Ap p e l l a t e Pr o c e d u r e 32.1 a n d t h i s c o u r t 's Lo c a l Ru l e 32.1.1.
Wh e n c it in g a s u m m a r y o r d e r in a d o c u m e n t f il e d w i t h t h i s c o u r t , a p a r t y m u s t
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
"s u m m a r y o r d e r "). A p a r t y c it in g a s u m m a r y o r d e r m u s t s e r v e a c o p y o f it o n
ANY PARTY NOT REPRESENTED BY COUNSEL.
b y s u m m a r y o r d e r d o n o t h a v e p r e c e d e n t ia l e f f e c t

SUMMARY ORDER FILED ON OR AFTER J ANUARY 1,

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 11th day of December, two thousand twenty.
PRESENT:

ROBERT D. SACK,
DENNY CHIN,
RAYMOND J. LOHIER, JR.,
Circuit Judges.
--------------------------------------------------------------------- x
MONIB ZIRVI, MATTHEW LUBIN, MARIA
KEMPE, NORMAN GERRY,
Plaintiffs-Appellants,
-v-

20-546-cv

JAY T. FLATLEY, ILLUMINA, INC., DAVID R.
WALT, STEPHEN P.A. FODOR, KEVIN
GUNDERSON, JIAN BING FAN, MARK
CHEE, AFFYMETRIX, DBA AS PART OF
THERMO FISHER SCIENTIFIC, APPLIED
BIOSYSTEMS, DBA BRAND OF THERMO
FISHER SCIENTIFIC, ROBIN M. SILVA,
JOHN R. STUELPNAGEL,

-

1

-

Appx. 38
Case 20-546, Document 111-1, 12/11/2020, 2991760, Page2 of 10

Defendants-Appellees.*
x

FOR PLAINTIFFS-APPELLANTS:

TIMOTHY M. KOLMAN, Kolman Law, P.C.,
Penndel, Pennsylvania.

FOR AFFYMETRIX AND APPLIED
BIOSYSTEMS DEFENDANTSAPPELLEES:

JONATHAN P. BACH (Lauren M. Capaccio,
on the brief), Shapiro Arato Bach LLP, New
York, New York.

FOR ILLUMINA DEFENDANTSAPPELLEES:

Robert P. Haney, Jr., Jay I. Alexander,
Swati R. Prakash, Covington & Burling LLP,
New York, New York.

FOR DEFENDANT-APPELLEE
STEPHEN P.A. FODOR:

Charles T. Graves, Matthew Gorman,
Wilson Sonsini Goodrich & Rosati P.C., San
Francisco, California.

Appeal from the United States District Court for the Southern District of
New York (Koeltl, J.).
UPON DUE CONSIDERATION, IT IS ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Plaintiffs-appellants Monib Zirvi, Matthew Lubin, Maria Kempe, and
Norman Gerry ("plaintiffs") appeal from the district court's judgment, entered January
15, 2020, dismissing their second amended complaint (the "SAC") against defendantsappellees Jay T. Flatley, David R. Walt, Stephen P.A. Fodor, Kevin Gunderson, Jian Bing
Fan, Mark Chee, Robin M. Silva, John R. Stuelpnagel, Affymetrix, Applied Biosystems,

*

The Clerk of the Court is respectfully directed to amend the caption as set forth above.

2

----------------- -

Appx. 39
-

Case 20-546, Document 111-1, 12/11/2020, 2991760, Page3 of 10

and Illumina, Inc. ("defendants"). Plaintiffs alleged that defendants misappropriated
their trade secrets in violation of federal and New York state law. By opinion and order
entered January 14, 2020, the district court granted defendants' motion to dismiss
pursuant to Federal Rule of Civil Procedure 12(b)(6), holding that the claims were
barred by the applicable statutes of limitations, and that they nevertheless failed to state
claims upon which relief could be granted. We assume the parties' familiarity with the
underlying facts, the procedural history of the case, and the issues on appeal.
I.

Background
Plaintiffs' allegations of misappropriation stem from two incidents -- (1)

Fodor's alleged misappropriation in 1994 of a confidential grant proposal, submitted by
Dr. Francis Barany's team to the National Cancer Institute, for a novel method of
identifying genetic mutations and (2) the Illumina defendants' alleged misappropriation
in 1999 of Barany's and Zirvi's proprietary set of 465 zip code sequences.1 They allege
that defendants wrongfully misappropriated three broad categories of trade secrets: (1)
trade secrets contained in the 1994 Barany proposal, (2) trade secrets contained in the
1999 proprietary zip code sequences, and (3) "negative trade secrets" derived from both
acts of misappropriation that include the experimental knowhow and "dead ends" that
allegedly have independent economic value to a competitor seeking to replicate the

1
"Zip Code Sequences" refer to specially designed oligonucleotides used in detecting
changes in DNA.

3

Appx. 40
Case 20-546, Document 111-1, 12/11/2020, 2991760, Page4 of 10

plaintiffs' experimental results.2 Plaintiffs did not commence this action until 2018. To
overcome defendants' statute of limitations defense, plaintiffs alleged that defendants
engaged in a twenty-five-year conspiracy of fraudulent concealment, in which all
documents referenced in the SAC had been "camouflaged, disguised and [had their]
nomenclature changed," Plaintiffs' Br. at 2. According to plaintiffs, this conspiracy
made it impossible for them to have been put on actual or constructive notice of the
misappropriation until shortly after January 2018.
II.

Discussion
We review de novo a district court's grant of a motion to dismiss pursuant

to Rule 12(b)(6), including its application of a statute of limitations, Ajdler v. Province of
Mendoza, 890 F.3d 95, 99 (2d Cir. 2018), but we review a district court's decision to deny
equitable tolling for abuse of discretion, Koch v. Christie's Int'l PLC, 699 F.3d 141, 157
(2d Cir. 2012). While we accept all factual allegations in the complaint as true and draw
all reasonable inferences in plaintiffs' favor, Shomo v. City of New York, 579 F.3d 176, 183
(2d Cir. 2009), we need not accept all "legal conclusions" asserted by plaintiffs, Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009). Similarly, while the court should not dismiss a
complaint if it pleads enough facts to state "a claim to relief that is plausible on its face,"

2
The SAC describes "negative trade secrets" as "the trade secrets reflecting, referencing
and relating to the thorough scientific process required to create a trade secret, much of which
was unsuccessful and resulted in experimental dead ends (i.e. negative) but which was crucial
in the ultimate invention and success of the trade secret." Joint App'x at 31 n.1.

4

----------------- -

Appx. 41
-

Case 20-546, Document 111-1, 12/11/2020, 2991760, Page5 of 10

id. (internal quotation marks omitted), the standard of factual pleading is higher when
plaintiffs seek to equitably toll a limitations period under the doctrine of fraudulent
concealment, for plaintiffs must plead the elements of fraudulent concealment with
particularity, see Armstrong v. McAlpin, 699 F.2d 79, 90 (2d Cir. 1983) (holding that
appellants' "generalized and conclusory allegations of fraudulent concealment do not
satisfy the requirements" of Rule 9 of the Federal Rules of Civil Procedure).
Here, the district court correctly dismissed the SAC for failure to state a
claim, as plaintiffs have failed to plausibly allege fraudulent concealment such that
equitable tolling should apply to their otherwise time-barred claims.
A.

Federal Claims

Plaintiffs bring federal claims under the Defend Trade Secrets Act of 2016
("DTSA"), 18 U.S.C. § 1836, et seq., and the Racketeer Influenced and Corrupt
Organizations Act ("RICO"), 18 U.S.C. § 1961, et seq. DTSA claims are subject to a threeyear statute of limitations and accrue from the date the misappropriation "is discovered
or by the exercise of reasonable diligence should have been discovered." 18 U.S.C. §
1836(d). RICO claims are subject to a four-year statute of limitations and accrue from
the date a plaintiff "discovered or should have discovered" plaintiff's injury. Koch, 699
F.3d at 148, 150 (2d Cir. 2012) (internal quotation marks omitted).
As the district court correctly noted, "the statutes of limitations began to
run no later than the dates of the 2006 patent interference proceedings before the
5

----------------------- -

Appx. 42
-

Case 20-546, Document 111-1, 12/11/2020, 2991760, Page6 of 10

[United States Patent and Trademark Office (the "USPTO")] and the [2010] litigation in
the federal district court in Delaware." Joint App'x at 463.
In the 2006 USPTO proceeding, Cornell University ("Cornell"), on behalf
of the Barany team of researchers, raised a claim nearly identical to plaintiffs' here -­
that Fodor and Affymetrix claimed confidential information from the 1994 Barany grant
proposal as their own in patent filings and then hid Fodor's name in subsequent patent
applications; Zirvi and Kempe were named as junior parties in the initial interference
pleadings. In 2010, Cornell, the assignee of many of the relevant patents in the instant
case, sued Illumina, Inc. in Delaware regarding substantially the same body of research
and patents (issued in the name of Barany, Zirvi, Kempe, and Lubin) plaintiffs implicate
in their misappropriation claims.
The district court correctly held that the 2006 proceeding and 2010 lawsuit
"put the plaintiffs in this case on inquiry, if not actual, notice." Joint App'x at 463. Even
if plaintiffs, as they allege, received no actual notice of the 2006 proceeding or the 2010
litigation, the USPTO proceeding and the litigation -- both public proceedings -­
involved substantially the same claims, and several of the same parties, as here. These
circumstances surely put a "person of ordinary intelligence" on at least inquiry notice.
Koch, 699 F.3d at 151 ("person of ordinary intelligence" has a duty of inquiry when
circumstances raises a probability that he has been defrauded); see LC Cap. Partners, LP
v. Frontier Ins. Grp., Inc., 318 F.3d 148, 153, 155 (2d Cir. 2003) (relying in part on a related
6

----------------- -

Appx. 43
-

Case 20-546, Document 111-1, 12/11/2020, 2991760, Page7 of 10

lawsuit against the same defendant by different plaintiffs to conclude that current
plaintiffs were on inquiry notice of fraud due to "storm warnings evident on the face of
the detailed complaint" (internal quotation marks omitted)).
Accordingly, we agree with the district court that the federal statutes of
limitations have expired and the federal claims are time-barred.
B.

State Claims

Plaintiffs bring state claims under New York trade-secret
misappropriation laws and common-law torts of fraud, conversion, tortious
interference with prospective business advantage, inequitable conduct, civil conspiracy,
and breach of confidence.
Under New York law, plaintiffs' trade-secret-misappropriation claims and
common-law claims (except for fraud) are each subject to a three-year statute of
limitations. See N.Y. C.P.L.R. 214(4) (three-year statute of limitations for actions to
recover damages for injury to property); Andrew Greenberg, Inc. v. Svane, Inc., 830
N.Y.S.2d 358, 362 (App. Div. 3d Dep't 2007) (three-year limitations period for tradesecret-misappropriation claims); Joint App'x 464-65 (district court order compiling cases
applying three-year statute-of-limitations to the applicable common-law claims under
New York law). Plaintiffs' trade-secret-misappropriation claims accrue at the time of
defendants' alleged misconduct or upon the disclosure of the trade secret, not when
plaintiffs discover the misappropriation. See Synergetics USA, Inc. v. Alcon Lab'ys, Inc.,
7

----------------- -

Appx. 44
-

Case 20-546, Document 111-1, 12/11/2020, 2991760, Page8 of 10

No. 08-cv-3669 (DLC), 2009 WL 2016872, at *2 (S.D.N.Y. July 9, 2009). Similarly,
plaintiffs' common-law claims (except for fraud) accrue upon the alleged breach or
tortious act. Joint App'x 465 (district court order compiling cases applying accrual rules
to breach of fiduciary duty, conversion, and tortious interference with prospective
business advantage, as examples). Plaintiffs' own pleadings show that the claims began
to accrue in 1994 and 1999, when the alleged misconduct and disclosures occurred.
More than three years have passed since.
Under New York law, the statute of limitations for fraud claims is the
greater of six years from the date the cause of action accrued or two years from the time
the plaintiff discovered the fraud, or could with reasonable diligence have discovered
the fraud. N.Y. C.P.L.R. 213(8). Here, plaintiffs allege that defendants' fraud arose from
the "filing of improper, fraudulent and false patents," and "submission of false and
materially misleading patent applications, re-applications, renewals and continuations."
Joint App'x 159. The SAC alleges that this fraud occurred from 1994 until at least 2007
(without specifying how much longer it continued). Based on either end of the time
range, more than six years have passed. In terms of when plaintiffs could have
discovered the fraud with reasonable diligence, we hold that, at latest, this would be by
2010. For substantially the same reasons we concluded that plaintiffs' federal claims
were time-barred, so too are their common-law claims.

8

Appx. 45
Case 20-546, Document 111-1, 12/11/2020, 2991760, Page9 of 10

C.

Equitable Tolling

Plaintiffs argue that the statutes of limitations here should be equitably
tolled under the doctrine of fraudulent concealment, which under federal common law
allows a statute of limitations to be
tolled due to the defendant's fraudulent concealment if the
plaintiff establishes that: (1) the defendant wrongfully
concealed material facts relating to defendant's wrongdoing;
(2) the concealment prevented plaintiff's discovery of the
nature of the claim within the limitations period; and
(3) plaintiff exercised due diligence in pursuing the
discovery of the claim during the period plaintiff seeks to
have tolled.
Koch, 699 F.3d at 157 (internal quotation marks omitted). Generalized and conclusory
allegations of fraudulent concealment, however, do not satisfy the requirements of Rule
9 of the Federal Rules of Civil Procedure. Armstrong, 699 F.2d at 90.
The district court found several independently fatal flaws in plaintiffs'
fraudulent concealment argument and in particular found independent reasons for
concluding that plaintiffs failed to exercise due diligence. We agree that plaintiffs failed
to satisfy the due-diligence prong of the fraudulent-concealment test. Indeed, we agree
with the district court that "the matters in this case are substantially similar to the ones
that Barany and Cornell litigated before the USPTO and in the District of Delaware,
matters about which plaintiffs were either actually aware because they were named in
the litigation or constructively aware because the proceedings were public." Joint App'x
at 469-70. Plaintiffs' conclusory claims that they could not have discovered the
9

Appx. 46
Case 20-546, Document 111-1, 12/11/2020, 2991760, Page10 of 10

misappropriation through the exercise of diligence because defendants engaged in a
decades-long fraudulent "conspiracy" of "camouflage[], disguise[] and nomenclature
change[s]," Plaintiffs' Br. at 2, lack particularity and are unavailing. See Veltri v. Bldg.
Serv. 32B-J Pension Fund, 393 F.3d 318, 322-23 (2d Cir. 2004) ("[e]quitable tolling is an
extraordinary measure" that requires a reasonable level of diligence expected in the
circumstances). In light of the public information available to plaintiffs by 2010, we
conclude that the district court did not abuse its discretion by declining to equitably toll
the relevant statutes of limitations.
Finally, we decline to entertain plaintiffs' continuing-tort theory, raised for
the first time on appeal. See Local 377, RWDSU, UFCW v. 1864 Tenants Ass'n, 533 F.3d
98, 99 (2d Cir. 2008) (per curiam) (noting the well-established general rule that an
appellate court will not consider an issue raised for the first time on appeal).
*

*

*

We have considered plaintiffs' remaining arguments and conclude they
are without merit. For the foregoing reasons, we AFFIRM the judgment of the district
court.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

10

Appx. 47
Case 20-546, Document 111-2, 12/11/2020, 2991760, Page1 of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
DEBRA ANN LIVINGSTON

CATHERINE O'HAGAN W O LFE

CHIEF JUDGE

CLERK OF COURT

Date: December 11, 2020
Docket #: 20-546cv
Short Title: Zirvi v. Flatley

DC Docket #: 18-cv-7003
DC Court: SDNY (NEW YO RK
CITY)
DC Judge: Koeltl

B IL L OF COSTS INSTRUCTIONS

The requirements for filing a bill o f costs are set forth in FRAP 39. A form for filing a bill o f
costs is on the Court's website.
The bill o f costs must:
* be filed within 14 days after the entry o f judgment;
* be verified;
* be served on all adversaries;
* not include charges for postage, delivery, service, overtime and the filers edits;
* identify the number o f copies which comprise the printer's unit;
* include the printer's bills, which must state the minimum charge per printer's unit for a page, a
cover, foot lines by the line, and an index and table o f cases by the page;
* state only the number o f necessary copies inserted in enclosed form;
* state actual costs at rates not higher than those generally charged for printing services in New
York, New York; excessive charges are subject to reduction;
* be filed via CM/ECF or if counsel is exempted with the original and two copies.

Appx. 48
C ase 20-546, Document 111-3, 12/11/2020, 2991760, Page1 of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
DEBRA ANN LIVINGSTON

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: December 11, 2020
Docket #: 20-546cv
Short Title: Zirvi v. Flatley

DC Docket #: 18-cv-7003
DC Court: SDNY (NEW YORK
CITY)
DC Judge: Koeltl

VERIFIED ITEMIZED BILL OF COSTS

Counsel for

respectfully submits, pursuant to FRAP 39 (c) the within bill of costs and requests the Clerk to
prepare an itemized statement of costs taxed against the

and in favor of

for insertion in the mandate.
Docketing Fee

______________________

Costs of printing appendix (necessary copies_______________) ______________________
Costs of printing brief (necessary copies___________________ ) ______________________
Costs of printing reply brief (necessary copies______________ ) ______________________

(VERIFICATION HERE)

Signature

